                                                                      Issue Date
                                                                          September 22, 2011
                                                                      Audit Report Number
                                                                            2011-NY-1016




TO:              William O’Connell, Director, Community Planning and Development, Buffalo,
                                                          New York, 2CD



FROM:            Edgar Moore, Regional Inspector General for Audit, New York/New Jersey, 2AGA

SUBJECT: The City of Buffalo, NY, Did Not Always Disburse Homelessness Prevention and
         Rapid Re-Housing Program Funds in Accordance With Regulations

                                           HIGHLIGHTS

    What We Audited and Why

                   We audited the City of Buffalo, NY’s administration of its Homelessness
                   Prevention and Rapid Re-Housing Program (HPRP) funded under the American
                   Recovery and Reinvestment Act of 2009. We selected the City based on the
                   concerns identified in our audit of the City’s Community Development Block
                   Grant (CDBG) program.1 The objectives of the audit were to determine whether
                   the City efficiently and effectively administered its HPRP in compliance with
                   Recovery Act and other applicable requirements. Specifically, we wanted to
                   determine whether City officials had adequate policies and procedures to ensure
                   that (1) program funds drawn from HUD’s Line of Credit Control System were
                   supported with adequate documentation, (2) subrecipients were properly
                   procured, and (3) subrecipients were monitored to ensure compliance with all
                   applicable requirements.




1
    Audit Report Number 2011-NY-1010, issued April 15, 2011
What We Found
           City officials did not always administer the HPRP grant in accordance with
           applicable rules and regulations. Specifically, they (1) made cash advances to a
           subrecipient that were not supported by the immediate cash requirements, (2) failed
           to provide adequate support for the selection of subrecipients, and (3) did not
           adequately monitor subrecipients. As a result, City officials could not assure HUD
           that they had effective control and accountability over all funds, and that those funds
           were used solely for authorized purposes.

What We Recommend
           We recommend that the Director of HUD’s Buffalo Office of Community
           Planning and Development instruct City officials to (1) provide documentation to
           support advances of $138,268, (2) provide documentation to justify the costs of
           two subrecipients with contracts totaling $392,141, and (3) revise its monitoring
           policies and procedures to ensure that it monitors the day-to-day activities of all
           subrecipients during the term of the grant agreements.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response
           We discussed the results of the review during the audit, provided a copy of the
           draft report to City officials, and requested their comments on August 25, 2011.
           We held an exit conference on September 6, 2011, and City officials provided
           their written comments on September 6, 2011, at which time they generally
           disagreed with the finding. The complete text of the auditee’s response, along
           with our evaluation of that response, can be found in appendix B of this report.




                                              2
                            TABLE OF CONTENTS

Background and Objectives                                                     4

Results of Audit
      Finding 1: City Officials Did Not Always Administer the HPRP Grant in   5
                 Accordance With Applicable Rules and Regulations

Scope and Methodology                                                         11

Internal Controls                                                             13

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use          15
   B. Auditee Comments and OIG’s Evaluation                                   16




                                            3
                     BACKGROUND AND OBJECTIVES

The Homelessness Prevention and Rapid Re-Housing Program (HPRP) is a new housing
program under the U.S. Department of Housing and Urban Development’s (HUD) Office of
Community Planning and Development. It was funded on February 17, 2009, under the
American Recovery and Reinvestment Act of 2009, which provided $1.5 billion in funding. The
purpose of HPRP is to provide temporary homelessness prevention assistance to households that
would otherwise become homeless but for this assistance, many due to the economic crisis, and
to provide assistance to rapidly re-house persons who are homeless.

The City of Buffalo was awarded $6.5 million in HPRP funds in 2009, and as of June 30, 2011,
it has drawn down more than $4.5 million in HPRP funds. The Buffalo Urban Renewal Agency
is the City’s agency responsible for administering the HPRP grant. City officials developed a
plan to administer the HPRP in a collaborative effort with over 50 agencies that received a lot of
positive feedback on efforts to combat homelessness. The City and agencies’ effort lead to
innovative ideas to administer the program such as contracting with a central finance agency and
having all supporting documentation maintained in electronic files utilizing the existing
Homeless Management Information Systems (HMIS).

The City of Buffalo Housing/Homeless Outreach Program is comprised of the nine local not-for-
profit organizations that responded to City officials’ request for proposals for the management,
implementation, and delivery of services relating to the HPRP grant. The nonprofit
organizations, consisting of the American Red Cross, Suicide Prevention & Crisis Services, Inc.,
Neighborhood Legal Services, Inc., Community Action Organization, Housing Opportunities
Made Equal, Homeless Alliance of WNY, Lt. Col. Matt Urban Center, Saving Grace Ministries,
and Catholic Charities, developed the policies and procedures for the program. The City of
Buffalo Housing/Homeless Outreach Program’s resources are targeted to households that are
most in need of temporary assistance and most likely to achieve and maintain stable housing
once the program ends. The American Red Cross functioned as the Central Finance Agency and
distributed HPRP client funds. All case management agencies were to conduct intake, direct
applicants to the appropriate agencies, and provide case management. All agencies were to
participate in data collection activities using HMIS. The HMIS provides grantees the
opportunity to (1) re-examine how homeless services are provided in their community, (2) make
informed decisions, and (3) develop appropriate action steps, in order to meet needs in a more
streamlined manner and obtain information to guide future planning. Further, use of the HMIS
allows for the collecting of an array of data on homelessness, including unduplicated counts, use
of services, and the effectiveness of the local homeless assistance system.

The objectives of the audit were to determine whether the City had efficiently and effectively
administered its HPRP in compliance with Recovery Act and other applicable requirements.
Specifically, we wanted to determine whether City officials had adequate policies and
procedures to ensure that (1) program funds drawn from HUD’s Line of Credit Control System
were supported with adequate documentation, (2) subrecipients were properly procured, and (3)
subrecipients were monitored to ensure compliance with all applicable requirements.


                                                4
                                RESULTS OF AUDIT

Finding 1: City Officials Did Not Always Administer the HPRP Grant
           in Accordance With Applicable Rules and Regulations
City officials did not always administer the HPRP grant in accordance with Federal regulations.
Specifically, they did not (1) ensure that cash advances drawn down from HUD’s Integrated
Disbursement and Information System were supported by the immediate cash requirement of the
subrecipient, (2) justify that the City’s procurement of subrecipients was the most advantageous
to the HPRP, and (3) adequately monitor subrecipients. These deficiencies occurred because
City officials had weaknesses in their implementation of HPRP grant controls. As a result,
$432,427 in unsupported costs was charged to the program. Consequently, City officials’ ability
to administer their HPRP funds efficiently and effectively and ensure that HPRP objectives were
met was diminished.


 Cash Advances Were Not
 Supported


              City officials advanced $138,268 in HPRP grant funds without support that the
              subrecipient had an immediate cash requirement. The Central Finance Agency
              made an advance request of $100,000 on June 16, 2011, when $38,268 from the
              previous advance had not been expended. Regulations at 24 CFR (Code of Federal
              Regulations) 84.22 require that recipients be paid in advance, provided they
              maintain or demonstrate the willingness to maintain (1) written procedures that
              minimize the time elapsing between the transfer of funds and disbursement by the
              recipient, and (2) financial management systems that meet the standards for funds
              control and accountability, whereby cash advances to a recipient organization are
              limited to the minimum amounts needed and timed to be in accordance with the
              actual, immediate cash requirements of the recipient organization in carrying out the
              purpose of the approved program or project.

              This deficiency occurred because City officials failed to ensure that controls
              provided in their agreement with the Agency were followed. The agreement
              between the City and the Agency provided that advances of funds would be made
              only after a full accounting of the previous advance of funds and estimate of future
              need was provided. However, although vouchers provided the accounting of the
              previous advance, no evidence of the estimate of future needs was provided. As a
              result, City officials could not assure HUD that they had effective control over and
              accountability for all funds and that those funds were used solely for authorized
              purposes. At one point, the Agency had more than $165,000 in previous cash
              advances available when it requested an additional $100,000 without an estimate of
              the future need. The stockpiling of HPRP funds was susceptible to fraud; for

                                                5
            example, there were three unauthorized transfers from the Agency’s client fund
            account that was solely funded with HPRP funds. The funds were transferred to pay
            the cell phone bill of an HPRP client; however, the Agency identified the issue, and
            the bank reimbursed the funds to the account.


The City’s Subrecipient
Selections Were Questionable

            City officials awarded $392,141 in contracts to two subrecipients, the selection of
            which was not adequately supported. City officials identified on their substantial
            amendment to the consolidated plan 2008 action plan for HPRP that they would use
            a competitive process in their selection of subgrantees. The City’s application
            review committee recommended seven agencies for funding, and City officials
            funded nine agencies. The documentation to support the selection of two additional
            agencies for funding was incomplete. An interoffice memorandum indicated that
            after receiving the recommendations from the committee, City administrators added
            the Community Action Organization and Saving Grace Ministries. City officials did
            not provide justification for the selection of the two agencies. In addition, they did
            not provide procurement procedures that would have allowed them to select
            agencies that were not recommended by the committee. Federal regulations at 24
            CFR 85.36(d)(3)(iii), pertaining to solicitation by competitive proposal require that
            grantees have a method for conducting technical evaluations of the proposals
            received and for selecting awardees.

            This deficiency occurred because City officials failed to follow the proper selection
            requirement for the competitive process. Further, officials failed to document that
            the selection of subrecipients was based upon the technical merits of the applications
            it reviewed. Thus, their solicitation for the management, implementation, and
            delivery of services relating to the HPRP grant did not allow for the selection of
            firms with proposals that were the most advantageous to HPRP, based upon the
            documentation. Therefore, City officials expended $294,159 in HPRP funds on
            unsupported costs for these two agencies. In addition, if City officials cannot
            demonstrate that the selection of the two agencies complies with program
            requirements, the $97,982 in remaining contract funds should be reprogrammed for
            other eligible purposes and put to better use.

City Officials Did Not
Adequately Monitor Their
Subrecipients


            City officials did not adequately monitor their subrecipients as required by
            Federal regulations and the HPRP Notice of Allocations, Application Procedures,
            and Requirements for Homelessness Prevention and Rapid Re-Housing Program
            Grantees under the American Recovery and Reinvestment Act of 2009.

                                              6
Specifically, they did not (1) take timely and appropriate action against a poorly
performing subrecipient, (2) perform timely onsite monitoring, and (3) ensure the
accuracy of Homeless Management Information Systems data. Regulations at 24
CFR 85.40(a) provide that grantees are responsible for managing the day-to-day
operations of grant and subgrant activities. In addition, section V.I. of the HPRP
notice provides that grantees are responsible for monitoring all HPRP activities,
including activities carried out by a subgrantee.

1. Untimely Action for a Poor Performer

The City’s use of HPRP funds for the Community Action Organization’s case
management services was an inefficient use of funds. The Organization was
awarded $21,200 in year 1 of a potential 3-year contract. Its budget was increased
by $60,000 to hire additional case managers due to the overwhelming demand for
HPRP services once the program was started. Then it was awarded a budget
revision of $231,669 and a time extension for year 2 of the contract. Thus, the total
amount awarded to the Organization was $312,869. However, its performance did
not justify the increase in award amounts. The Organization submitted HPRP
funding applications for only 29 of 1,197 households that the Central Finance
Agency approved. Therefore, less than 2.5 percent of the clients receiving HPRP
funding were serviced by the Organization. In comparison, the Lt. Col. Matt Urban
Center serviced 402 of the 1,197 households, or more than 30 percent.

The Central Finance Agency documented its problems with the Organization’s
performance. These issues resulted in multiple meetings and technical assistance
being provided to the Organization. The Organization explained that it had no
experience with clients needing rental assistance going forward or with clients
having utility issues. As documented in the January 2011 meeting notes, the City’s
housing director informed the Organization that November 19, 2010, would be the
marker for improvements. However, the Central Finance Agency and other
agencies in the program continued to document the Organization’s poor
performance. In May 2011, the Agency’s executive director recommended to the
City’s housing director that the City retrieve all outstanding Organization cases for
redistribution to other agencies and review Organization cases to ensure that they
were closed appropriately. Also in May 2011, the Agency’s HPRP program
manager notified the City’s housing director that the Organization’s performance
had not improved. The program manager stated that in April 2011, the Organization
referred only 5 cases for HPRP assistance; in comparison, the Matt Urban Center
had referred 36 cases. The Agency spent program resources reviewing incomplete
Organization applications and providing technical assistance, and clients were not
serviced properly or in a timely manner by the Organization. In conclusion,
Organization officials acknowledged to the OIG auditors that they didn’t have the
experience needed to manage the HPRP. These deficiencies occurred because the
City failed to take timely and appropriate actions related to the Organization’s failure
to comply with its agreements.



                                   7
2. Untimely Monitoring

City officials had not performed onsite monitoring of their subrecipients as of the
end of the audit period, February 28, 2011. Likewise, they did not provide
documentation showing how they planned to monitor their subrecipients. The City
officials’ substantial amendment to their consolidated plan and the preliminary
HPRP plan provided that monitoring would be performed by the subrecipient.
However, City officials did not identify their plan to monitor subrecipients. In
addition, the City’s HPRP policies and procedures provided that an evaluation
committee would meet regularly to monitor the various processes and systems
developed to administer the program. However, City officials did not provide the
fiscal and programmatic monitoring procedures implemented specific to HPRP. As
a result, City officials could not provide HUD assurance that their subrecipients
performed in accordance with HPRP requirements. They did not perform their first
onsite monitoring of subrecipients until after notification of our audit. These
deficiencies occurred because City officials did not replace the HPRP project
monitor upon his retirement in August 2010. A person dedicated to the program
could have implemented monitoring controls such as remote monitoring of the client
files and the performance of the Central Finance Agency.

3. Inaccurate Systems Data

The reports City officials submitted regarding program performance contained
mistakes. Specifically, the Homeless Management and Information Systems reports
that were used for reporting performance on the HPRP quarterly performance
reports did not reconcile. We brought this matter to the attention of the Homeless
Management Information Systems provider, who worked with the vendor and fixed
the data. However, City officials did not question that the data did not reconcile. In
addition, the Central Financial Agency’s chief administrative officer stated that the
information in the system regarding the amount of HPRP funds expended could not
be reconciled to the actual disbursements that were made. The amounts in the
system were used in the reporting of HPRP performance on the federalreporting.gov
Web site. In addition, the information provided to City officials regarding the
advances of funds between homeless prevention and rapid rehousing was incorrect.
Thus, City officials failed to ensure that the data provided by subrecipients was
accurate. These deficiencies occurred because City officials did not replace the
HPRP project monitor. A person at the City dedicated to the program would likely
catch these basic reconciling mistakes and ensure that data from the two agencies
matched.




                                  8
Conclusion

             City officials did not always administer the HPRP grant in accordance with
             Federal regulations. The deficiencies occurred because City officials had
             weaknesses in their implementation of HPRP grant controls. As a result,
             $432,427 in unsupported costs was charged to the program. Consequently, the
             City’s ability to administer its HPRP funds efficiently and effectively and ensure
             that HPRP objectives were met was diminished. Therefore, City officials need to
             provide an action plan that documents how the remaining $2 million in HPRP
             funds will be spent to ensure that the program objectives are met. For example,
             the City’s HPRP budget included almost $300,000 for program administration.
             However, as of June 2011, City officials had only expended a little more than
             $35,000 for program administration. Also, City officials need to identify what
             their future administration needs are and reallocate the remaining funds to other
             eligible HPRP activities.


Recommendations


             We recommend that the Director of HUD’s Buffalo Office of Community Planning
             and Development instruct City officials to

             1A.    Provide documentation to justify the $138,268 in unsupported advances
                    made to the Central Finance Agency so that HUD can make an eligibility
                    determination. Any costs determined to be ineligible should be reimbursed
                    from non-Federal funds.

             1B.    Establish and implement policies and procedures to ensure that adequate
                    source documentation is reviewed, future needs are documented, and there is
                    an immediate cash requirement before advancing HPRP funds.

             1C.    Provide documentation to justify the $294,159 in HPRP funds expended on
                    the Community Action Organization and Saving Grace Ministries. Any
                    costs determined to be ineligible should be reimbursed from non-Federal
                    funds. Also, if determined to be ineligible, the remaining $97,982 in
                    contract funds should be reprogrammed for other eligible purposes to be put
                    to better use, and the HPRP agreement with the Community Action
                    Organization should be terminated based on the subrecipient’s default of
                    its agreement with the City.

             1D.    Review all clients referred to the Community Action Organization and
                    ensure that the proper case management procedures were implemented.
                    For clients determined eligible and not provided assistance, their cases
                    should be reopened to ensure that HPRP objectives were met.

                                              9
1E.   Revise their monitoring policies and procedures to ensure that City officials
      monitor the day-to-day activities of all subrecipients during the term of the
      grant agreement in compliance with all applicable Federal requirements.
      Also, City officials should assign a qualified HPRP project monitor to
      oversee the HPRP grant until it is completed.

1F.   Provide an action plan that documents how the remaining $2 million in
      HPRP funds will be spent to ensure that the objectives of the program are
      met.




                                10
                         SCOPE AND METHODOLOGY

We performed onsite audit work at the City’s offices in City Hall, located in Buffalo, NY, between
March and August 2011. In addition, we performed onsite audit work at the offices of the
Homeless Management Information Systems provider, the Central Finance Agency, and the case
management agencies. The audit scope covered the period August 1, 2009, through February 28,
2011, and was extended as necessary. We relied in part on computer-processed data primarily for
obtaining background information on the City’s expenditure of HPRP funds. We performed a
minimal level of testing and found the data to be adequate for our purposes.

To accomplish the objectives, we

       Reviewed the HPRP Notice of Allocations, Application Procedures, and Requirements for
       Homelessness Prevention and Rapid Re-Housing Program Grantees under the American
       Recovery and Reinvestment Act of 2009, program guidance issued by HUD, and
       applicable Federal regulations.

       Interviewed HUD Office of Community Planning and Development officials to obtain
       HUD’s understanding of the City’s HPRP operations.

       Reviewed quarterly performance reports and annual performance reports that had been
       submitted related to HPRP.

       Analyzed reports from HUD’s computer systems, including the Integrated Disbursement
       and Information System, Line of Credit Control System, and Homeless Management
       Information Systems.

       Reviewed the City’s preliminary plan and its substantial amendment to its program year
       2008 action plan.

       Reviewed the Buffalo Housing/Homeless Outreach Program’s policy and procedures
       manual.

       Interviewed key City personnel responsible for the administration of HPRP.

       Obtained the grant agreement between the City and HUD and agreements between the City
       and its subrecipients.

       Interviewed key personnel at the subrecipient agencies.


We selected a nonstatistical sample 6 of 37 cash advance requests for HPRP client funds. The
$525,000 in advances represented more than 18 percent of the $2.85 million in cash advance
requests made as of June 30, 2011. In addition, we selected a nonstatistical sample of 29 of
1,197 HPRP clients who received funding from 2 of the 6 subrecipients that performed case
                                                11
management services. The cases were selected based upon the dollar amounts and the volume of
transactions. The $94,404 in program funds expended on the clients’ behalf represented just less
than 4 percent of the total client funds expended. The client fund payments consisted of invoices
and disbursements covering the period December 2009 through April 2011.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




                                                 12
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

         Effectiveness and efficiency of operations,
         Reliability of financial reporting, and
         Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                      Effectiveness and efficiency of operations – Policies and procedures that
                      management has implemented to reasonably ensure that a program meets its
                      objectives.

                      Compliance with applicable laws and regulations – Policies and procedures
                      that management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

                      Safeguarding of resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to the effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 13
Significant Deficiencies


             Based on the review, we believe that the following items are significant deficiencies:

                    City officials did not have adequate controls over compliance with laws and
                    regulations, as they did not adequately monitor subrecipients or always
                    comply with HUD regulations while disbursing HPRP funds (see finding).

                    City officials did not have adequate controls over safeguarding resources
                    when they advanced program funds to a subrecipient (see finding).




                                              14
                                    APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                Recommendation        Unsupported      Funds to be put
                       number                  1/       to better use 2/

                               1A        $138,268
                               1C        $294,159             $97,982
                                      __________           _________
                            Total        $432,427             $97,982



1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if City officials implement our
     recommendations to reprogram the remaining $97,982 in contract costs, they can assure
     HUD that these funds will be properly put to better use.




                                             15
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




Comment 3




                         16
Ref to OIG Evaluation   Auditee Comments




Comment 4



Comment 5




                         17
                         OIG Evaluation of Auditee Comments

Comment 1   Officials for the City provided email documentation from HUD subsequent to the
            audit work to support their contention that additional advances was part of an
            effort to provide timely cash flow. City officials plan to revisit the issue with the
            HUD program office, as well as explore certain processing improvements. We
            agree that the City should work with the HUD program office during the audit
            resolution process to explore certain processing improvements. However, the
            specific amount of advances is not in question, but rather, the lack of an estimate
            providing the actual, immediate cash requirements. Further, HUD’s concurrence
            documented in the email to increase advances does not indicate a waiver of
            regulations pertaining to the provision of an estimate detailing the actual
            immediate cash requirements.

Comment 2   Officials for the City disagree with the characterization of subrecipients selected
            outside the normal selection process. City officials contend that extending
            support into communities that were not well served or represented among the
            seven entities initially chosen by the review committee is reasonable.
            Notwithstanding this notion, City officials failed to follow the proper selection
            requirement for the competitive process in that the selection process was not clearly
            disclosed or defined. Further, officials failed to document that the selection of
            subrecipients was based upon the technical merits of the applications it reviewed.

Comment 3   City officials agree that subrecipients were not monitored adequately and they
            also recognize the need to timely replace departing staff. The officials plan to
            review their procedures and prepare an action plan that includes steps to replace
            officials more promptly is responsive to the finding.

Comment 4   City officials agree additional monitoring and account reconciliation is needed.
            The officials’ plan to replace departed or retired staff and review additional staff
            strengthening is responsive to the finding.

Comment 5   Officials for the City recognized early on that the technical requirements and
            complexity of the newly established HPRP would challenge the Community
            Action Organization and reached out numerous times to understand the technical
            difficulties the Organization was experiencing in order to bolster its capacity.
            Despite the City official claims, the officials failed to take timely and appropriate
            actions related to the Organization’s failure to comply with its agreements.




                                             18
